N0,_

ft-5870.

SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, aoao

'\7e37/arca$ Clafk pFTTTTOMFP
/

FILED
AUG 19 2020

VERSUS
DARREL VANNOY. RESPONDENT

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES SUPRFMF r.nuRT

R&speeWulhi submitted:

P.'Ma/U/M
D.O.C.number 521 HO '
Louisiam SMe Penittfth‘a 7
Aflflolciy LouisSa ri<tl01ia

QUESTIONS PRESENTED FOR REVIEW
(1)

Dilihe Sfafe's admission oP+he \f\~ooa/E Vestim/iy and
O/M dtpotE of a Su/dOaaEe Da/A adalysi l/L lieuoP+hg achial
VA/A aflalysT and O/i/Aj'tpof'E. ViolaEeihe PdtiViofled (s
S/Y-/A Ame./iA/neA-/' Pi'aM- b 'ConfAonbbo/l; Ufldd/ ihe Srb/ldaOd oP RAlmydbrj \/. A/pxa, /I/ImIco.SLA USrM %Cf.Q1Q5 ?

(2)

Whefhw ’bbl counsel violate! the Peti-tia/ief's $Jxvh
Ayn&flAtfMZfth f{qhf-fo E-U&ifivg AsshEance of Counsel^
vhdouqh auMu\aVwj£ ewofiS, wh£n coansel-Pa!led Vo
CoftducA- ad- independe/ii p/e-bldl i/jvgsEjgafbyl Into -b!(\8
iawS/facis*plead) nqs, and d/can\sVanaa£ oP+he PeiMoy)e/}S
case?

1

Z IST or PARTIES
W Dami Vm/lioy; Warie/i
Louisiana State Penitentiary
A/igola, Louisiana 10111
(a) Carl Stcmrtj (Attorney -for the. State of low siana)
District Attorney for the P&fhh of Caddo
Sal Texas St. 5th FI
Shreveport. Louisiana 11101
telephone (3lg>421-1US
(3) United. Stairs District Court (mlestern. District of doitlsiana)
Judas E. Foots.; Maqistrate Judqe nil. Hornsby
300 Tannin St, Suite llhl
J
7
Shreveport, Louisiana lllol
M Unite! States Court of Appeah (Far the Fifth Circuit)
U.S.Circuit Judge: Jennifer W. ELROD

li

■

TAR/ F OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW
El ST OF PARTIES
TARLE OF CONTENTS
INDEX OF APPENDICES
TABLE OF AUTHORITIES
JURISDICTION
Amplifying reasons for writ allowance
STATEMENT OF THE CASE
LAW AND ARGUMENT
CONCLUSION
AFFIDAVIT OF VERIFICATION AND SERVICE
CERT IF I CATE OF COMPLIANCE

ill

'INDEX OF APPENDICES
APPENDIX"At1-)USCeuriJ Appeals ioo Ehe Rhh CkuA
Rilling

fo) U S. O/s-M ci Coarh Western District o-P
Louis!ana Ruling
{^Louisiana Coarh-of-Appea)s;olnA Circuit/Puling
(^Louisiana Supreme CodC-h Ruling
(5)CdMo Parish District Court flu!Ana
A PPEhl DIX & MPeti hiOil tf’s ADotion hop CO, A and. Brie P in Support
(A) (/S. District Couch Agonistrate's Report an A
Recomnn eMailon (Western Pis bid of Louisiana)
APPENDIXX ’'Q) Motion showing Afldry dukes as actual DhJk analyst
-formerly employedahth@"All,C.L"now residinq in '
9k<\oJX
.
;
*
fa)Caddo Parish SheritTs report and. trial hes/irAotiy
o+ antranscnbeA, verbal preliminary resaEsTrom Alary
Oakes. (Page m-lines 31-3% Page 10%-lines !-&)
APPENDIX lD'y Trial -testimonyof surrogateDMAanalyst Amdra Williams
(pg MT lines 9ER2; 1110- lines K ay-3%11 la-lines 13- H; 1113 lines IEI%j2?>-ll;m-lines S-l&jllfl-lines IClS^S-PkllWAines
i4-J5,/9-^5y3/-32;;^M//7es

APPENDIX E (T) (/ 5.0istrict Couch Summons (Fed,R.Ciu P.lotfsXDorte)
(a) (AS. District Court Action and Order hoc an extension aP
time ho Respond Granted" (state)
(? ^ ^on ep ^ Mdhi°n Qn<£ Order tor Judgment by De­
fault pursuant to Court Summons, with Courts denial
^ and op in ion tor den i a l—=—-----------APPENDIX1T'Tria I records oft trial counsel's failure ho comply with
, £/ Dr Part 737' notice of alibi and the prosecution's null4, cation of the use of1Alibi Dehense''ds a result.

IV

APPEM£?IX"Gr"Cl)Trial counsel's testimony showingpre-trial know­
ledge cA alibi witnesses testimony andthei ripzrSDY\(x\&\f\d baStfl£Ss)Wiaizfla! £vtd{>.\f\c£> (Paae.s /W3-

n%m5tm)

(a)lf/W CoaAsd's displaye& /'tliaoceon the only ohosen de,t£nse.{De£ef\styydlibi)‘for+h£ defense. Via.
Counsel's aHenopf +o establish sack ihrcaah lh£
lesHtflfii/iy oP-f-hi Ptti-tiontn hitfisel-P, (Pages 365'1375
APPENDIX" H" (x)Tful counsels testimony of being destitute of the
sklllandEnowleJge,concerning the circumstances
eh,pertaining Jio the Petitioner's ease. (Panes It i
lines oft-tt;m-)ines 1-5)
3
fy/ouhlarta Attorney Disciplinary BoarJ.jsvuom
Statement taken ot trial counsel (relevantpages).
AaA Ld\k\<a\m& Supr€#)P Court's Kulifla op bfiol
counsel's suspension attache!.
J

TARLF OF AinmnTFS
UNTTFF) STATES smFMFmuKT rAPFS:
Bryart v. Scott, 3$ E 3i ml (a.
3u llcortinq V. A/ew Mexico, 5bH US'"ISI $.Ct.a705
C/WV4 \j. Wa.shiMton,M us%sims.Cti35%l522£A.3j 171
Cfonic v.Washlnato'h, Ub U.S.bbl-UbdSDIS.Ct.SDII
CuyleY M. Sullivan, IDO S.ct, 313,1115
Mu/is V. Washington, S 11 U.S. 213, 22b
fVapuE V. People d State MIH71 SSI. 1173.5tAU.S.PblW.S.IIimi)
People 11. SAMiAe%A/y.-aAsspsilSlA/.YS.admjSPyBb/V.fid
253,85H-SSJ
Strickland v. Washlnahn, IOH S.it.2obS, %t> US. (M(im
U. S. \l. Tales,, 311 F,3d 151, 112 (rnk C,Y, SU003.)
CONSTITUTTHNAI Pfl/)VTSTftMS
Fi-Pth fhnendne/iT
Sixth iMiddmenF
Foufteeflth FImeneme/li-

FEDERAL STATUTES
22 US.C. § 1357

as u.s.c.sn%

Fed. ft. C,V. P. 13.
Fed ,fL Evid $0Kc)
Fed.R. £vid 203
Fed.fi.Evid BOHUTd)
jLOin FlANA STATFT/ISPi

State v. Bolden Wl 15121% (U.App.3Cjf.£bu)
STATF STATUTFS

C.Cr. P. aft 121

V

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the juc|gment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appear at Appendix /4^0
and is

to the petition

M). /7-30313

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[y] is unpublished.
Hie opinion of the United States district court appears at Appendix
and is

to the petition

t ] reported at
i or,
[ ] has been designated for publication but is not yet reported; or,
[yj is unpublished.
[X] For cases from state courts:
Hie opinion of the highest state court to review the merits appears at Appendix A,
the petition and is

to

[X] reported at £ fafk V- Sfaft,• or>
[ ] has been designated for publication but is not yet reported; or,
] is unpublished.
The opinion of the
the petition aid is

QnA G/'curl-

Court ofAppeals appears at Appendix

[X ] reported at. CWk\A S/ifd> jffl&'lCH

;
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

7

to

JURISDICTION
[X ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was

t/fcw &thyam.

(X No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of Appeals on the
following date:
, and a copy of the order denying rehearing appears
at Appendix_
[ ] An extension of time to file the petition for writ of certiorari was granted to and including
(date) on
(date) in Application No.
A
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).
[ ] For cases from state court:
[ ] A timely petition for rehearing was thereafter denied on the following date;
______________ , and a copy of the order denying rehearing appears at Appendix_______
[ ] An extension of time to file the petition for writ of certiorari was granted to and including
(date) on
(date) in Application No.____ A_____ .
The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

8

FTATFMFNT OF JURISDICTION
The order of The United States Court ofAppeals for the
Fifth Circuit denied Iflr.VeMarcus Clark his motion for a
COA. Order ti led by the Court on 7% ASA zom. Petition
hr a. Writ Certiorari is tiled within ninety Jap of that date,
pursuant to Supreme Court (He 13,1.7k,jurisdiction of -this
Court is invoked under US.C.hlUSl.
Moreover, the United Skates Court-of Appeals tor the Fifth
Ci rcuit. In it's order denying the Petitionee ot a CoA. Totally
disregarded tils Honorable Court's decisions made in cases that
Involve surrogate forensic H\-CDaAtestMny,e.g. Ballcomim v.
New n/ltxicD. fadings that directly et tat the Petitioner in this Petitionbehrethis honorable Court.The United. States Court of
Appeals hr the Fifih Circuit. Being in. direct conflict with
oupremt Court Rule I0(c). Wherefore, giving this Coart the
Jurisdiction to review and grant reviewed and relief. As so
deemed appropiate by this Court.

VI

.STATFMFMT Of THF CASE
On Tflay 36y dOH, Petitioner Submittedan Appicatio/l
-for Post Conviction AelieP. tie raised numerous claims ctitfia)
counsel*$ ineffecJ-ivenes s. Petitioner also raised a violation of
his S)l#k Amendment right to Confront his accusers,prefaced#/)
the use of trial/ of a laboratory compliance officer in lieu of ~rhe
analyst who aclually conducted +he DA/A 4-tsting-/hot purportedly
linked Petitioner to the crime. Trial court- denied relief as, re­
petitive on July itA atom. On review the Second Circuit- Cruft
cti Appeal, denied writs on October 33 rd So it. One year lalep
Oii October 3rd 30)5;ihe Louisiana. Supreme Count again re-f as el to intercede. see Appendix T^M5)
On December ttk 3015, Petitioner -filed his petition forIs­
suance cti the Writ of Habeas Corpus. Petitioner1 argued that the
trial testimony of surrogate laboratory analyst Audra Williams.
M/ho conceded that" she did not conduct the tests j assist in the
testings, perform tie analysis j nor was present during +he test-.
Ing and neither seen the tested items with hen own eyes. And .
merely connpilel -the testing analyst Alary Poke's said notesy pic­
tures and conclusions (which were never produced at trial) and as­
sembled them Into a final report (D//A Report) tor trio I usei'SeeAppendlx'D’! in Hen of tie testimony of the declarant, D/i/d analyst
Tdary DukP. Violated his fundamental fight to confront his accu­
sers as secured by the Sitth. Amendment at die U,S, Constitu­
tion.

~

“

Petitioner also maintained that his trial counsel was inefti
ectwje for several reasons;including her failure to object to
analyst Williams1 testimony. Failure toprocure (alibi)defense

VIII

inesSCSj who would have provided professional do camefife and
verbal teshirfwny for the defense for use ad trial. Failure to give
notice of Alibi Defense as required by CXr.P.art 1£l;+o secure use
of defensive strafeg y of trial. flfloneovef, da!lure iopertbr/ri d/L
'independent prelclal investigation into Fie Tactsypleadlings/
and clrcunnstamces, concerninq ihe petitioner's case, See

Wi

Appendix r; (G-14fHUa).
The US. District Court (Western DAlrictofSouls lar <x\denied
writs on Febupafy dSth c7,0)1. Petitioner -filed iWotiondor CAA.
with brief In support-. In the UAided States Goads of Appealsjbr

the Frf+h Circuit on approxf/na+ely June SSihSon.V/hentfope on ffid\j dSth dORD, Ft United Stales Court of Appeals
foe the Fifth Circuit denied Petitionees Addion top C.O.A.
Petitionee now seeks review )a his Instant Petition ion Writ
of Certiorari to THE UNITED STATES SUPREME CouFI

AMPi TFYTMG RFASm FOR WRTJ MANTAL
The allowance or denia I of review om & writ of certio­
rari rests within -the. soundjudicialdiscretion ofthis
hoflotabk coani. The, -following although neither controll­
ing Abr tally measuring the Court's discretion,Indicate
the character of the reasons the Caui-t considers.Tflorecsver.thc selected subsections listed under Supreme Court
Rak ID. That will be cited in this argawieint^ will convey com­
pelling reasons tor allowance of the instant writ as Rale IT
KH)d35e^fs.
Tnthe Instant petition before this Court. Pule ID subjection
vlfafaphrasing’hssertsic United States Court ofAppeals has
decided a A important federal gUCsFbn in a way -that has so
-far departed from the accepted and usual course ofjudicial
proceedings,or sanctioned su^hd. departure by a lower
court, as to call aA exercise of this Court's supervisory powef.
31ft (kddTon to Rale ID subsection (c)paraphrasing asserts9,
a State Court ora United States Court ofAppeals hasdecided
dft important federal question in away that conflicts with re­
levant decisions of this Court doth subsections of Supreme
Court Kale ID weigh, heavily with divers other factors as to allow
review of petitioner's certiorari as petitioner 'will illustrate.
The.in court verbal testimony and material testimony (PM
Report). OFa surrogate DAA9aAalyCt who Conceded o/l the record
that shetdid not personally perform, assist, supervise, and wasnot present when the testing concerning the Petitioner 's Va/A
was eYamined.SeeAppenai/D"

VII

Surrogate D/I/Aanalyst tarthCP statedon the recordthat
she/ nevlf saw the -tested iteff& id person. Yet assembled a Pd/d
Report toP introduction. add use at the fititioner's -trial. Having
used the said notes,pictures,and con elusions ktt behind by
the actual testing analyst-. Who reheated to Texas prior to the
start at the pet! tiontr's tr ial.See dpfiendix"C-(!L),"0". Petitioner
must ifltofm m> Court that the. said notes,pictarits^ndcoAclusion5 that were said to have been lett behind by the test­
ing analyst. 3elicvel to haul been used b write a report by the.
SuPPogate analyst; were never produced, fre-trial, Jar inland
f ast trial. Farther invalidating this witness andprejudidng Petitioner.
The Stale's introduction ot this torn cdsurrogate testimony is in
Aired opposition with this honorable Court's holdings in. Bullcoining v. /Pew/YleAcablS.CtdlbS.dlB-llMl.BdSJ. UU/1 (toil) and
nfltkrtcl&z-Oiaz-V. zflassach US ettSs fflS.06.3537; lit/.Ed. 3d 311J
(3.001). Concerning the incourt testimonial statements oPdoftASi'c anal yds.etseq. Moreover, being in opposition withthis
Court's holdings it CcawTardv. VL/ashingbrt,51l U.S.3L51j6/'I,2:
131 S.Ci. 1351: mi.Bd.3d in&mlln addition to violating the
Petitioner Sixth U. S, Constitutional Amendment to confront the
accusers, against him. As wellas a host oh other federal laws
expounded upon it this instant certiorarijThat call for this
Court's supervisory power b be executed tor correction.
Furthe rmore. both the Sble_ Courts and Federal Courts
argue erroneously that tthe U.S. Supreme Court iri'Bd/oam.
jpg''dl)PS not clearly establish what dpiypp at in\inhip mPrtt
.vuiththp triOPYisir. testing.hpyontm/hat wa^ pnp^pat ,‘c KutL

coining is require! of a testifying witness. The Court's err­
oneously Interpreting thk honorable Court’s holdings and pup
poses for perserving a flifSoPtf right toConfrontation. In a/i
effort to ju stify their addmissioF of.this for if? of hearsay
test!Yfloiflyani evidence io secure easier prosecutions, A
personal experience that has prejudice the Petitionerinthis
instant petition. See Appendix l'B"(f)pp.)L clearly amplifying the
reasons hr writ allo wance. Also being contrary to Rule 16 (c).
Thtse errors from both the rtak Courts and Federal Courts
as /f pertains io the Petitioner's rights. Follow carte Id kelp
prejudicial error io recognize the ineffective assistanceof
counsel rendered tv -the petitionerts/ia his trial counsel's
Cumulative errors throughout -the pre-trials during trial/and
0ost-trial steps. the record clearly reflects that trial counsel
was not compeltntly skilled to represent ihe Petitioner In a
case of this typeijuoy irial l kind (crime of violence), and did. not
seek to obtain ing requisite knowledge and skillpre trial to odeguaiely represent ihe Petitioner at trial, WUh trial counsel hav­
ing prior knowledge of her lack in skilland knowledge requisite
io make her representation effect vt.As trial counsel so test'
f ied to for ihe record, see Appendix "fTO-), Trial counsel failed to
conducted an Independent pre-trial investigation into the farts,
laws,plcadingc/ond circumstances concerning Petitionee's
case,As the record reflects trial counsels -failurk to give no­
tice to the State of use of an Alibi Defense as required by C>Cf.
Fart ll^lrto secure its usage at the Petitioner's triaLTkrcfore _
prohibiting the use of the only defensive strategy deployed at the
petitioner's trial by trialcounsdSee Appendix1!"

1nxac.ii due to trial coailsel's deception in obtaining retnlAMtifit iopiiflaflcla) gain.Through lying about her criminal trial
artclco.se t*periz/ice.,T0 -the petitioner1 pre-trial. fl. compliant was
tiled ogalnst trial counsel withthe /outsiaria Attorney Dis­
ciplinary Board U.A,D,B)by the Petitioner, which ultimately re­
sulted in the Petitioner's trial counsel being suspended by the
Louisiana. Supreme Court. For trial counsel's actions again­
st the Petitioner presented by the LA. D.S.seeAppendivTl-SL
Trial counsel's suspension occuring prior to Petitioner tiling
his Post Conviction Relief Briet.Zn which numerous in effec­
tive assistance of counsel'claims went raised and erro/ieoasly Jenied.Sez Appendix A-ipzpp
State and Federal Courts both being wrong-tally contrary to
this honorable Court’s holdings in Strickland w Washlnqto/iM

u. s. (M, m S.C£, 3052, dOP ,£j.Sd LI (IW). United States V.
Crania, tbb (J,S.m,&StiM/.£j.dJLSti-/oys.Ci,2o3<}Qml Con­

cerning the errors and how to determine it ineffective or
effscri ve assistance at counsel was ori wasn't renderedto
the defendant. As well as being contrary to the Sixth its..
Constitutional Amendment -that guarantees a person eff£c.-fi ve counsel to Safeguard hisor her right to One Process of
Law. Hthll.S. ConstitutionalAmend and St-hULConstitatianaUrmnd.
Again i llustrating the State and Federal Courts prejudicial
errors committed against the. PetitionFr.Thatare expounded
in. detail Within this instant Certiorari. Also contrary to dale
Ibjtlsupportincj Petitioner's, amplifying reasons for allowance
of this in$tahf writ.

With oJtament pleasj Petitionerprays this instant writhe
a llowedc For the record dearly displays Ithe so Far departure
From accepted and Usual coarse. ofjudicial proceedings/
sanctioned such a departure by a lower coart. 3y way ot the
Western Federal district (Loaft ofLouisiana (5ih Circuit} As to call
tor an evercise of this Court's supervisory power.
The Western Federal District Court of/oalsiona (5lhCircait\
hawing shown tawor to the 'state District Co art.Through clerta)
of the Petitioner's /l/lotlon tor Judgement 3y Default. Due to the
State's Failure to tile a timely response to the Petitioner's writ/
tiled Into the Western Federal District Court of Louisiana (Sth
Circuit} As so ordered by the Court In its summons issued
tv the State District Court, according to Fed> PL Ciu P> iDPCfaht
(t}Jhe Western Federal District Court ot Louisiana (5ih Circuit)/
asserting la its dental) Denied Detaalts aredisfa\joredyThere
Is no real prejudice From the one day delay '!Petitionerls//lotion
shows a sewed day delay, see Appendiv 1;2,3
The Western Federal district-Court oflouisiana (srh OccaH),
prejudiced the Pet toner by not executing the rales of court.
Thus holding the State District unliable for It's failure to com­
ply. Deny/f\cj the Petitioner the r-dtef warranted do to the State
Coart Is failure to comply with the Federal rules of cour f died
oil the issued summons. ihe Federal Court odamantly dray,ng
from the Supreme Rule Id subsecticni0)as records show.
Petitioner prows with sappliestio/i that this instant wr/t
he a Hawed and the ampl/fyino of reasons are satisfa cton, For
fall review on Petitioner's claims.Which will dearity Important
questions of lout? Reasons In accordance with Pule Id and HdCtf),

XSSU£ OKIE
t/l/fl.5 the admission. of the. Id-courk testin/lon y
and 3Oa/A Report by a surrogate analyst in lieu

ctf the testl/lg analyst at trio I.Hn violation at

the Pettlomf’s Ml Amend fig ht -ho Co/tfrontahad
decorJls show the Petitioner's Va/P profile was qederated)
by -fiorensic analyst Adary Dukes at the /Zb Ah Louisiana Cnl/M/lal/sfics Laboratory (Jl/,LC.L). However, Dukes never intenpreted her machine generated data into a. testimonialcertiticatio/L (DM depart)pr£ trial-ceased employment at the yW,l.C.Lj
relocating to Texas. see Appendix C (AM)
Whereforej surrogate analyst Audra Williams tor ike ML. CL.
l/l/ds proffered and accepted as the expert analyst tor the Stake.
Testifying to the. VA/A findings in lieu of the testing analyst Dukes
at fetitio tier's trial. Htncetorthy analyst WillIn ms testified $he'd*
neither supervised, persona lly performed, or observe1 ike generation
af Clark's DwA profile. I never saw the evidence personally;! was
not there. The testing analyst never interpreted her data into a DMA.
report prior to endmg her employment.Therefore,upon being tkSiqrtei to the case ensuing Dukes'departure.! used Dukes're­
sults (machine generated data), notes and pictures ofthe evidence
tD create a Data report far trio L ! dll write both On/A reports and
Signed themseP. Append;* D
This Court In J& dimming held0 The Confrontation Clause Joes
not permit the prosecution to introduce a forensic laboratory report
conta (ding ate stivnon I a 1 certifi cation. Made in order to prove a
tOct at a criminal trial Ah rouah Ate in-court testimony of an a/lalyst who Aid n A sign the certification'Personally performjor obseti
ve the performance of the test reported in the certificotionl AJtd-~
lag that?A lestlng analyst's certification reports more than a
machine generated number. It represented,■.,, that tie analyst

1.

Performed olparticular test o/Ltke Intended sample arid ad­
hered to a. prtclstorotocal... Human actions riot revealed in
ravt machine data.That's reserved forihe crucible of Confronta­
tion, Surrogate testimony of the kind offered from an analyst
who did not supervise, personally performer observe tie perfor/ftMce of the test tepopted in tie certification, would riot be
equipped to convey what the testing analyst knew or observed
dfooaf the events he or she certified, nor expose any lapses or lies
on the testing analyst's part/sbt 0,S;'13I S. ct.Qios mu)
Therefore, this Court’s holdings and conclusions dddbumlM.
m the record in this case also Illustrates* That testing analyst Oakes'
omission to have interpreted her machine generated data Into a.
written DA/A report also -failing to testify at trial tv her findings,
mfirms the in-court testimony and Da/A repart/,/tierpreted{ writ­
ten, slg ned and introduced by surrogate analyst Avtdra Williams
at petitioner Clark’s trial. Was false and false repre s entatib ny ha ving not participated in the testing process,generating the DA/A resuts at any point.Thus hearsay under fed. k.Bvld Holland not exe­
mpt under Fed. t fvid W3and Wt 0Msec Append!tin'
Itowexjepy State and federal Courts dissented in their rulings ag­
ainst this Court. Averting analyst Audra Williams'qualifications
mA experience as gl forensic analyst-. Qualified her as an adequate
Surrogate a nalyst to interpret; write; sign, and testify. To trie Da/A
report and ifs -findings at petitioner dark's Aria I in lieu of tie
testing analyst Alary Dukes. see Appendix d'(^)
Afzver+hitlesSj this Court in Eu. 11coming rejected that notion
holding) the State Courtis reasoning wouldpermit another expert
• •<* to introduce the information ofjtis declarant, so loflg a s hear y
she vuas equipped to testify aboutthe technology theexecuting; ~
*••
emp loyed a ad whatever organlnation's or departments
standard operating procedures are!Also ti/s Court net edlthe
State Could have avoided, any Confrontation Clause p/otiem by

a.

asking fk sui<roQa-fe analyst to rdest the sample and den
testify -bike resalls of his retesti rather dan +o the results of
a test he did not conductor observepSbt U.SyQtol1BjJ3J &. Ctd70S
(toll), Sfafc \l finlden. VUi tblmh.C^JppB Or. 2oil), e.g. Ckvls v/, Mtashjng, make*s pkin/The comparative reliabilityofan analyst's testimonial
report does not dispense witkthe clauses such testt/nony would
violateihe Confrontation Clause ,5H1 U.S. 2)3.Crawford SHI tt$y

at 6S*

The Federal Coach k petitionee darks proceedings have.Sfrontoady interpr-eted and applied this Court's holdings,To deny peti­
tioner's- C.O.A. Concurring with the State Court's rulings.Federal
Courts asserting that theli U,S< Supreme Court in Eullcomidg,
Dots not clearly establish what degree of invoke Merit with the
Forensic testing !s required crp an In-court witness ottered to
prove a particular hat In a testimonial certification,beyond
what was deemed Insufficient \h 3ullccimAig!/TJie Federal ana
State Courts reasonings giving this Courtjurisdiction to review
o/i Certiorari, t/;a "Supreme Court dale 10 (c).In addition to the
Federal Courts' blatant demonstration of leniency. For the State
Courts concerning the Federal tfules of Court (fed. (L Civ. P. lot (a)
(a)or(3). Th at dir ecdl y prejudiced the petitioner, see AppeyiAiyffa)
fa Y3 ) i'‘ft"C±'\paqs>~cl

U

Petitioner's Sixth thntnJdned (light to Confront the witnesses
against him was clearly violated.it\A his Fourteenth ftmendmert;
?
1a
Amendment to the 11$, Constitution were violated(vue Process ot laJ) iTheju ry*s estimate of the truthfulness
and reliability of a given witnesses testimony or evidence may very
well be determinative of guilt or innocence, and it is upon suck
subtle factors•*,of the witness in testifying falsely that a defend­
ant's life or liberty may depend"*,mtinn-foaph i/^ w,lJo<. a/ fnJ wy

5yi,mitX- s. & ns, m, bf MsaJhftm-tts, atedmA/nnup v.^wJ
JJtatr. of Hunt $.c+.im,Ud aS.2t>'i.(U,S.l)UM) U.S.C.ACortsk
Amend it.
3.

JLR SUF.TWft
\/l/&s Petitioner's 6fk Amend right to Effective.
Assistance of Counsel violated. When -trialt
counsel bailed -to conduct an investigation. into
the lawSy facts, pleadings, a Act circumstances
of Petitioner's cnsBj causing cumulative errors
This Courtay reedihalx‘The Sixth Amendment imposes on
counsel a doty -to investigate, because reasonably effective as­
sistance must- be based oa professional decisions and infortfled legal choices can be Aidete li0.hJLVt{ after investigation of op­
tions, Strickland v. Washington, W4 S.CtdOSfytbh Ll.S. b%i!W)
XX, atm.
v
Trial counsel's failure to conduct a pre-trial Investigation
1/l'h) the laws,facts, pleadings, and circumstances concerning
the Petitioner's case. Canted cumulative errors tD occur dur­
ing trial as a result ofcounsel's negligence. That negligence
demonstrated by counsel to not co/lduct ati investigation. H/cti
only lead to the tat lure of Issuing Subpoenas to procure, th£
alibi deftn.se Witnesses appearance tor trial.In addition to se­
curing the Material evidence in their possession made void. Also
■failure to have provided notification of an 'Alibi Defer sc"to th£
prosecution. An. error that legally allowed the prosecution to
nullify trial counsel's only chosen line of detense, usage at.
the Petitioner's trial under C. Cr.P.art Idl. Itako lead to counters
failure to object to the m-court testimony of an unqualified
sarroqo-k O/vA analyst in lieu of the. actual testing analyst dur­
ing the Petitioner's tin in I srp. AppovidiyCffiYa)!'n"png/> nx/Niresl-t
Furthermoref the Court held in Bryant v, ScottJ the attorney is
tallure to cortoat ahbi witnesses was ineffective assistance '
of counsel. Counsel was aware of witnesses early in the pro­
ceedings of defendant's case/that defendant wished to call

M.

these for Afe defense* Counsel had a duty to make an uivestiqatlon /VL liqhtof seriousness oti offense andqravlty
of p a/I; *h nil entfw F 3A I HI I (cJ.5 (T£X) / W).
The circumstances ok the Petitioner^ trial couns-e) ha.i/Ing prior knowledge ok the alib! witnesses. As wellas Petition­
er wishing to have these kor his dekense.Zs siMilan to the cir­
cumstance in Hhe tfrymtv* S>cattcase died above.Trial
counsel had pre-trial knowledgfywhai testimony and material
evidence, hoik personal an A business (phone records and timeshettslThese alibi wltn esses Would have provided the defense
as records show.However, counsel failed to solidify the'akbi
defense!'strategy as records show, Yet, trial counsel affirms her
reliance o/i only one line ok defense ad Petitioner's 'trial Via
attempts to circumvent the prosecution's banting of the use
of "Alibi Definsz .Through ihe quest!onlAa ok- the Petitioner hifllself during trial to establish such.see Appendiy G"bXo), F1
In Strickland, %f U,S. bbt>+he Court staled Ilk there Is
only one plausible line okdoktnse, counsel [tMUsT‘'conduct a.
reasonably substantial investigation into that Un£ of defense
since there can be no strategic choice that renders such an In­
vestigation unnecessary’Ixd, at 1052. Also in Pur/lmdl v. Es­
telle,the Court staled* c 1*it counsel relics at trial on only one IIfie ok
defense /although others ace available* c • the Investigation "MUST*1
Include d/L Independent exan/ltnation of the tiactsjlawsjpleadings,
and circumstances invoked,590FadIOSj/0H(ca.stilDSnkact,
counsel k own ill-court assertion of 7 not being Experienced at crimes
of violence cases and Jury trial size, an indicator as to why counsel
-railed to conduct an investigation sec dpprndi/W'fa)
Ilfevvitheless, trial counsel in-Goart statement revealed counsels
pre-trial knowledge ck being destitute ok the minimum skill and
knowledge requisite to effectively represent/- the Petitioner in a
5.

Case fills SCriodsness op oPfensb artA magnitude of partislflM tnti 5haul A ha.ve compelled counsel-fa conduct arl Inde­
pendent pretrial invcstlgatilo/L into everything rtleve/lt pertalAiflg to the Petitioner's axseiTo haui effectively assisted the Peti­
tioner daringtrial.Unfortunately Pop the Pef-itfonenyCouflset Patted
to acquire the PtjilhiiB knowledge b\j flop irwiestiigating his case.
dooHncj) Cuyler \j. Sullivan supra at 3^3/Unless a ckfie/laaflti charged with cl serious offense has counsel able to Invoke
-the. procedural and substantive safeguards that distinguish
0\ir System ofjustice .A serious risk of injustice infects the
trial ittdf /100 S.Ct.at I1IS (citations omiiteJl The Petittoner k this
petition haAnosuoh counsela$quoted 1a Cuyler v,Sullivan.There­
fore injustice Infected the Pditionerk trial in this petition. As
Cu\j ler \i. S a 11ti/an s u ggestis„
This Court In Cronlc held^indeeA counsel's l/icompetience
can be so serious that it rises to the level of constructive denial or
counsel/ which can constitute constitutional error without any
showing of prejudice," %ti U. S.£>51-66DJ6l S.Ct.dOtl. foe this Courtto agree with ifs holdings In^Cronici moreover it's holdings In SttiA<land , Would not be beyond reasonable consideration for this
Honorable Coart to apply those standards. To the Petitioner's writ
oT certiorari. In light of- the evidence presentedaqai/ist counsel
in tills petition .
Trial counsel's cumulative errors were so egregiaasly har/flPul and prejudicial to the outcome of the Petitioner's trialbnsiilng
the Petit tionerk triabthe Petitioner Piled a complaint against his
trial counsel. With the Louisiana Attorney Disciplinary Board
(AA.D.d) complaining oP counsel's incompetence as a whaky pretirialj daring triaLand post trial.The 'lLA.D,B-ralir)g in favor of
the Petitioner's complaint. Pesulting in counsel's being intermftiy
suspended from the practice of lavg Py theZoulslana Supreme Court

6.

Counsel1s errors ultimately left the Petitioner defenseless during
trial. As the restlit of the state's usage of GCrJ.art 137.1n essence,
fetftionir ms not' represented. by counsel as the Sixth Amend­
ment of the US. Constitution. mandates, InadAltiontocorrtritou­
ting to the State's violating of Petitioner's S/xth Amendmmt
right to Controntat/o/l^tuilure to object fa 4-he ir-court testimony of
aA anaaalif-leA surrogate Oa/A analyst In lieu of the actual decla­
rant), A/oted results of counsel'? cumulative errors effects.
sze,Appendix"M''fa)
The. cmvyiia laf1! i/B effect of counsel's errors constituted
ineffective assistance of counsel. A standard set forth in.
Strickland/that vu&san, unreasonable application of strideland by the Federal and State Courts, in Petltiorterk filings. As, a
cumulative-erPor analysis aggregates ail errors found tv be
harmless individually and analyzes whether their cumulative
effect on the outcome of the trio I is such that collectively they
can. no longer be determined tv be harmless', U.&. v Tolas.2.1*7
r,lA °lsi,17aL(idtiiGr.aoo£)
COA/CJLOKJON
While Ptilfloret Will esohew further traversal of the
QntfeA states Court of Appeals dental of his motion for CoA.
Petitlo Y)4P hereby objects to the dental in its entirety and adopts
the contents of his Petition and his /Memorandum. For thermSorts listed in the above memorandum. Petitioner respectfully,
request with Supplication that this Honorable Court, reject
tie United States Court of Appeals denial. Consequently. Petitioner
is 6)titled to the sought at ter relief in accordance to stand inq
laws o\- the U, S, Constitution and. of eh/s Honorable. Court. ^

7

AFTTf)A\ITT OF VIHTFT CATTMI ANnSfRVrr.F
ST/?T£ OF/LOUISIANA
PARISH OF WESTF£UC1M
BEFDKE JT\E, came and nnoc/irpJlT)pMaraiA CJunk
stating ihaia.
deposing and siating
ihaia copy oilhe foregetiig Petition for
WWof
Cerildfariioihe
U
\rJfii
of Gertib
f aCi -to ihe Untied
Sticks, CaprefllS Coiiii ft&S
beeA July served oa all parties regained ia be served and
ihai all information contiained herein are tine and correcHoihe
bed of hi's knowledge and belief.
Thai a copy of the foregolna has b&rt served upon ihi Caddo
Parish. Disirtd CourkWarden. ctZoalst&na Siaie Penltiniiary.The
On tied Sti/ies Vls-frld CoariimkdtM Distiid ofloaidana FtCih
Orcadian! ihe Onikd Shies Coari of Appeals (hr he Fiti+h
CircaiilonA opposing counsel namely.
Carl Ckmftifi/liiorfley ^or-fhe Shir ofloulsiaria)
OlSirici AUorney 4or ihe Parish of Caddo
SOI Texas Si. 5ih FI
Shrev&pori.Aoalsiana WAI
telephone. 3ti-vai-lbiz
All by fW class MatTposiaae pre-patdyor election ically tikd.oT
oh one copy io each on ihti 17 +h day of Auysti

ah ihe sami time ihe original was maileddo ike Clerk of
united. Shares Supreme Coari.

8.

*
W3D,

SVl/OR/1/ AND SUBSCRIBED b before, me on bbUth,
djCK\j n-P

A^QrOsT _____/ROS.D.

prison ex-officio
(Aa+hoNzeA
A/ob/'y)

9.

CERTIFICATE OF COMPLIANCE
X certify that the {'ongoing Petitiioner's Brief 1$ in
compliance vuifkihe repair end enis imposed by Supreme
Court flute liafiJl 53,1 .The instant- brte£ consist oP 10 pagee,
an A mi words, £Xcla sluP of -the {able of contents, -table of
authorities, and. certificates of )isti of parties, service and
compliance.
/OeMafcus leSc\TClark
' DAQ. number W1}%
Louisiana. State Penitentiary

Ai^oh, la nona.

)0.

